TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Affordable Care Act: The Tax Exempt
                       and Government Entities Division’s
                       Planning Efforts for the Health Care
                               Reform Legislation



                                         August 16, 2011

                              Reference Number: 2011-10-085




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                       HIGHLIGHTS


AFFORDABLE CARE ACT: THE TAX                              documented in a consolidated monthly status
EXEMPT AND GOVERNMENT ENTITIES                            report.
DIVISION’S PLANNING EFFORTS FOR                           The TE/GE Division has completed most of its
THE HEALTH CARE REFORM                                    initial planning activities and is working on
LEGISLATION                                               implementation activities for the ACA provisions
                                                          that went into effect in Tax Year 2010. In its
                                                          planning for the ACA, the TE/GE Division
Highlights                                                identified nine separate provisions that could
                                                          impact its customers. In order to address these
Final Report issued on August 16, 2011                    provisions, the TE/GE Division prepared
                                                          17 requests to revise tax forms and/or capture
Highlights of Reference Number: 2011-10-085               additional data. TIGTA did not identify any
to the Acting Commissioner, Tax Exempt and                concerns relating to the TE/GE Division’s
Government Entities Division.                             identification of the ACA provisions applicable to
                                                          its customers or the methodology used to
IMPACT ON TAXPAYERS                                       monitor and coordinate its planning efforts.
The Patient Protection and Affordable Care Act            Two of the nine provisions, the Small Employer
(ACA), along with amendments in the Health                Health Care Tax Credit and the additional
Care and Education Reconciliation Act of 2010,            requirements for tax-exempt hospitals, required
contains significant changes to the Nation’s              the TE/GE Division to plan new processes for
health care system. The Tax Exempt and                    Tax Year 2010. To implement the Small
Government Entities (TE/GE) Division has                  Employer Health Care Tax Credit, the
completed most of its initial planning activities         TE/GE Division coordinated the development of
for the ACA and is working on implementation              an IRS-wide strategy to address taxpayer
activities. Our review did not identify any               compliance with requirements of the credit and
concerns relating to the methodology the                  planned for and initiated a program of
TE/GE Division used to monitor and coordinate             compliance examinations of selected tax-exempt
its planning efforts. Effective planning is critical      returns claiming the credit. As of May 21, 2011,
to ensuring the TE/GE Division’s readiness to             TE/GE Division compliance personnel had
implement this legislation.                               initiated compliance reviews on 272 tax returns
                                                          from tax-exempt organizations claiming this
WHY TIGTA DID THE AUDIT
                                                          credit.
This audit was initiated to determine how the
                                                          As required by the ACA, the TE/GE Division also
TE/GE Division is planning for the health care
                                                          planned and initiated a program of reviews of
reform legislation. The review is included in our
                                                          tax-exempt hospitals and began gathering
Fiscal Year 2011 Annual Audit Plan and
                                                          information for the required annual report. As of
addresses the major management challenge of
                                                          April 30, 2011, the TE/GE Division had
Implementing Health Care and Other Tax Law
                                                          completed 570 (34 percent) of the 1,700
Changes.
                                                          tax-exempt hospital reviews expected to be
WHAT TIGTA FOUND                                          completed by the end of Calendar Year 2011.

The TE/GE Division established an internal                WHAT TIGTA RECOMMENDED
Executive Steering Committee (ESC) and five
                                                          TIGTA made no recommendations in the report.
implementation teams to oversee the planning
                                                          TE/GE Division management reviewed the
for the ACA. Team meetings involving both the
                                                          report before it was issued and offered clarifying
internal ESC and the five implementation teams
                                                          comments and suggestions, which have been
were held on a monthly basis to discuss
                                                          taken into account.
progress, issues identified, and actions planned.
Significant action items and progress were also
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 16, 2011


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Affordable Care Act: The Tax Exempt and
                             Government Entities Division’s Planning Efforts for the Health Care
                             Reform Legislation (Audit # 201110020)

 This report presents the results of our review of the Tax Exempt and Government Entities
 (TE/GE) Division’s planning efforts for the health care reform legislation. The overall objective
 of this review was to determine how the TE/GE Division is planning for the health care reform
 legislation. This review had a limited scope and focused on the status of the TE/GE Division’s
 efforts to plan for implementation of the provisions of the health care reform legislation
 applicable to its customers. We specifically focused on planning for the Small Employer Health
 Care Tax Credit and for the additional requirements for tax-exempt hospitals. This audit is
 included in our Fiscal Year 2011 Annual Audit Plan and addresses the major management
 challenge of Implementing Health Care and Other Tax Law Changes.
 The Treasury Inspector General for Tax Administration made no recommendations as a result of
 the work performed during this review. TE/GE Division management reviewed the report before
 it was issued and offered clarifying comments and suggestions, which have been taken into
 account.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report results. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                     Affordable Care Act: The Tax Exempt and Government Entities
                    Division’s Planning Efforts for the Health Care Reform Legislation




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Summary of Actions Taken to Plan for the Implementation
          of Selected Provisions of the Affordable Care Act ....................................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Affordable Care Act Provisions That Could Impact
          Tax Exempt and Government Entities Division Taxpayers ......................... Page 10
         Affordable Care Act: The Tax Exempt and Government Entities
        Division’s Planning Efforts for the Health Care Reform Legislation




                         Abbreviations

ACA                Patient Protection and Affordable Care Act
ESC                Executive Steering Committee
IRS                Internal Revenue Service
TE/GE              Tax Exempt and Government Entities Division
                  Affordable Care Act: The Tax Exempt and Government Entities
                 Division’s Planning Efforts for the Health Care Reform Legislation




                                             Background

The Patient Protection and Affordable Care Act (ACA),1
along with amendments in the Health Care and                       The Patient Protection and
Education Reconciliation Act of 2010,2 contains                  Affordable Care Act, along with
                                                              amendments in the Health Care and
significant changes to the Nation’s health care system.
                                                                Education Reconciliation Act of
Administration of the changes falls upon the Department       2010, contains significant changes
of Health and Human Services regarding health care            to the Nation’s health care system.
policy issues and to the Internal Revenue Service (IRS)
regarding multiple tax law changes included in the
legislation. The ACA contains $438 billion worth of revenue provisions in the form of new
taxes and fees. The IRS’s responsibilities include, but are not limited to:
    •   Delivering tax credits to businesses, tax-exempt organizations, and individuals to assist in
        covering the cost of health coverage.
    •   Administering the requirement for individuals to purchase health coverage (only for those
        who are deemed able to afford such coverage) or be subject to a penalty on their
        individual Federal tax returns.
    •   Administering the requirement for certain large employers to offer affordable health
        insurance coverage to employees or be subject to tax.
    •   Administering multiple tax provisions designed to raise revenues to offset the cost of
        health care reform.
While several tax provisions took effect in Tax Year3 2010, such as the Small Employer Health
Care Tax Credit, most will be implemented during the next several years. To manage
implementation of the ACA, the IRS established an overall Executive Steering Committee (ESC)
in mid-2010 headed by an executive dedicated solely to overseeing the IRS’s ACA planning and
implementation activities.
The IRS Tax Exempt and Government Entities (TE/GE) Division is responsible for meeting the
special needs of pension plans, tax-exempt organizations, and government entities in complying
with the tax laws. The ACA impacts the activities of the TE/GE Division in a number of areas.
For example, the legislation contains provisions that impact TE/GE Division customers that are


1
  Pub. L. No. 111-148, 124 Stat. 119 (2010).
2
  Pub. L. No. 111-152, 124 Stat. 1029.
3
  Tax year refers to a 12-month accounting period for keeping records on income and expenses used as the basis for
calculating the annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                            Page 1
                Affordable Care Act: The Tax Exempt and Government Entities
               Division’s Planning Efforts for the Health Care Reform Legislation



employers. Specifically, eligible tax-exempt organizations will be able to claim a credit of up to
25 percent of premiums paid for employees’ health insurance for Tax Years 2010 through 2013.
In addition, the legislation adds new requirements to the Internal Revenue Code that tax-exempt
hospitals must meet to maintain their tax-exempt status.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the TE/GE Division during the period March through June 2011. This review had a limited
scope and focused on the status of the TE/GE Division’s efforts to plan for the implementation of
selected provisions of the health care reform legislation applicable to its customers. As such, we
relied primarily on interviews with IRS personnel and reviews of available documentation, such
as status reports and work requests, and did not perform any detailed testing to evaluate the
effectiveness of actions taken by the IRS to implement the health care reform legislation.
Otherwise, we conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                     Affordable Care Act: The Tax Exempt and Government Entities
                    Division’s Planning Efforts for the Health Care Reform Legislation




                                        Results of Review

Preparing for implementation of the ACA tax provisions presented a number of critical
challenges to the TE/GE Division, including the need to quickly identify the provisions
applicable to its customers and develop a structure to manage planning for the implementation of
those provisions. In order to address these challenges, the TE/GE Division established an
internal ESC and five implementation teams to oversee planning for the ACA. Team meetings
involving both the internal ESC and the five implementation teams were held on a monthly basis
to discuss progress, issues identified, and actions planned. Significant progress and action items
were documented in a consolidated monthly status report which was used by the internal ESC to
monitor progress. In addition, the TE/GE Division provided monthly updates to the IRS-wide
ACA ESC.
We did not identify any concerns relating to the TE/GE Division’s identification of the ACA
provisions applicable to its customers or the methodology it used to monitor and coordinate its
planning efforts. At the time of our review, the TE/GE Division had completed most of its initial
planning activities and was working on implementing the ACA provisions that went into effect
in Tax Year 2010. In its planning for the ACA, the TE/GE Division identified nine separate
provisions that could impact its customers.4 To address these provisions, the TE/GE Division
prepared 17 requests to revise tax forms and/or capture additional data. Two of the nine
provisions, the Small Employer Health Care Tax Credit and the additional requirements for
tax-exempt hospitals, also required planning for additional compliance and review processes by
the TE/GE Division. We specifically focused our audit work on these two provisions because
they required the TE/GE Division to plan new processes for Tax Year 2010.
For implementation of the Small Employer Health Care Tax Credit, the TE/GE Division
coordinated on the development of an IRS-wide strategy to address taxpayer compliance with the
requirements of the credit and planned for and implemented a program of compliance
examinations of selected tax-exempt returns claiming this credit. As required by the ACA, the
TE/GE Division also planned for and initiated a program of reviews of tax-exempt hospitals and
began gathering information for the annual report. Our limited scope review did not identify any
concerns regarding the TE/GE Division’s planning activities for the ACA provisions and we are
making no recommendations in this report.




4
    See Appendix IV for a listing of the provisions that could impact TE/GE Division customers.
                                                                                                  Page 3
                Affordable Care Act: The Tax Exempt and Government Entities
               Division’s Planning Efforts for the Health Care Reform Legislation



Summary of Actions Taken to Plan for the Implementation of Selected
Provisions of the Affordable Care Act

Small Employer Health Care Tax Credit
The Small Employer Health Care Tax Credit became effective for Tax Year 2010. The credit
was designed to encourage small employers, including tax-exempt organizations, to offer health
insurance coverage for the first time or maintain coverage they already have. For Tax
Years 2010 to 2013, the maximum credit is 35 percent of premiums paid by eligible small
business employers or 25 percent of premiums paid by eligible employers that are tax-exempt
organizations. The credit for tax-exempt organizations is refundable. The IRS revised the
Exempt Organization Business Income Tax Return (Form 990-T) and made programming
changes to support processing of the credit for tax-exempt organizations. The IRS also created
the Credit for Small Employer Health Insurance Premiums (Form 8941) and instructions to allow
small employers, including tax-exempt organizations, to calculate the credit.
The IRS also developed an IRS-wide small employer tax compliance strategy to reduce
opportunities for evasion, improve reporting compliance, and enhance taxpayer service. As a
part of this strategy, TE/GE Division compliance staff is responsible for performing compliance
examinations on selected returns from tax-exempt organizations claiming the Small Employer
Health Care Tax Credit. On February 1, 2011, the TE/GE Division provided training to the staff
assigned to these compliance examinations. Topics covered in the training included a general
introduction to the credit, understanding the forms used to claim the credit, and allowable
premium costs. The IRS advised that, as of May 21, 2011, TE/GE Division compliance
personnel had initiated compliance examinations on 272 returns from tax-exempt organizations
claiming the Small Employer Health Care Tax Credit. Because of the limited scope nature of
this review, we did not perform any testing to evaluate the effectiveness of this process. The IRS
also advised that through June 14, 2011, 3,980 taxpayers filing Form 990-T claimed the Small
Employer Health Care Tax Credit, totaling $16.6 million.

Additional requirements for tax-exempt hospitals
The ACA established additional requirements tax-exempt hospitals must meet in order to
maintain their tax-exempt status. These requirements include implementing a financial
assistance policy, limiting charges for emergency care, complying with new billing and
collection requirements, and conducting community health needs assessments. These
requirements affect approximately 5,100 tax-exempt hospitals. The IRS revised the Return of
Organization Exempt From Income Tax (Form 990) Schedule H (Hospitals) for Tax Year 2010
in response to the new requirements. The revised Form 990 Schedule H provides a section for
tax-exempt hospitals to describe their policies and activities in accordance with the new
requirements, including new questions addressing the financial assistance, emergency medical
care, and billing and collection policies of tax-exempt hospitals.

                                                                                            Page 4
                   Affordable Care Act: The Tax Exempt and Government Entities
                  Division’s Planning Efforts for the Health Care Reform Legislation



In addition to new requirements for tax-exempt hospitals, the ACA requires the IRS to review
the community benefit activities5 of tax-exempt hospitals at least once every 3 years. The TE/GE
Division created a new group, the ACA Review of Operations, and provided training on
November 16, 2010, to 10 employees responsible for performing the new reviews. Topics
covered in the training included overall tax exemption requirements, community benefit standard
factors, and unrelated business income issues.
The TE/GE Division advised that as of April 30, 2011, they had completed 570 (34 percent) of
the 1,700 tax-exempt hospital reviews expected to be completed by the end of Calendar
Year 2011. The ACA Review of Operations group performs these reviews to determine
whether the tax-exempt hospitals report their community benefit activities. Because of the
limited scope nature of this review, we did not perform any testing to evaluate the effectiveness
of this process.
The ACA also requires an annual report to Congress on the levels of charity care6 provided by
private tax-exempt, taxable, and government-owned hospitals and the costs incurred for
community benefit activities by private tax-exempt hospitals. This report is to be prepared in
consultation with the Department of Health and Human Services. The TE/GE Division
identified and started capturing data on the financial assistance policies and community health
benefits of tax-exempt hospitals as outlined on the revised Form 990 Schedule H. For example,
the IRS made computer programming changes to record data on the financial assistance and
other community benefit activities reported on Form 990 Schedule H. The IRS is exploring the
need for a memorandum of understanding with the Department of Health and Human Services to
help clarify data responsibilities regarding the preparation of this report.




5
  Community benefit activities are tax-exempt hospital programs and services that promote the health of the
community or communities served by the organizations.
6
  Charity care refers to the provision of financial assistance at tax-exempt hospitals and other facilities, including
providing free or discounted health services to persons who meet the tax-exempt hospital’s criteria for financial
assistance and are thereby deemed unable to pay for all or a portion of the services.
                                                                                                                  Page 5
                Affordable Care Act: The Tax Exempt and Government Entities
               Division’s Planning Efforts for the Health Care Reform Legislation



                                                                                   Appendix I


        Detailed Objective, Scope, and Methodology

Our overall objective was to determine how the TE/GE Division is planning for the health care
reform legislation. This was a limited scope review and the overall approach was to gather the
information necessary to quickly report the status of the TE/GE Division’s efforts to implement
the provisions of the health care reform legislation applicable to its customers. We specifically
focused on planning for the implementation of the Small Employer Health Care Tax Credit and
the additional requirements for tax-exempt hospitals because these provisions required the
TE/GE Division to plan new processes for Tax Year 2010. To accomplish our objective, we:
  I.   Determined whether the TE/GE Division identified the health care legislation provisions
       that could impact its customers.
 II.   Determined the status of the TE/GE Division’s efforts to prepare for the health care
       legislation.
       A. Interviewed TE/GE Division senior managers regarding the overall actions
          planned/taken to prepare for the health care legislation.
       B. Reviewed meeting minutes of any steering committees/implementation teams
          established within the TE/GE Division to guide planning for the health care
          legislation.
       C. Interviewed applicable TE/GE Division personnel to obtain more detailed
          information on actions planned/taken for the health care provisions.
III.   Determined any plans by TE/GE Division management to develop new processes or
       programs or expand existing staffing to address implementation of the health care
       legislation.
       A. Interviewed TE/GE Division management to determine any actions taken/planned to
          implement new processes or programs to prepare for the health care legislation.
       B. Determined any plans to hire new staff or assign additional responsibilities to existing
          TE/GE Division personnel to prepare for the health care legislation.




                                                                                              Page 6
               Affordable Care Act: The Tax Exempt and Government Entities
              Division’s Planning Efforts for the Health Care Reform Legislation



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the TE/GE Division’s policies and
procedures related to planning for the implementation of the health care legislation. We
evaluated these controls by interviewing management, reviewing implementation team meeting
minutes and status reports, and analyzing implementation plans.




                                                                                        Page 7
              Affordable Care Act: The Tax Exempt and Government Entities
             Division’s Planning Efforts for the Health Care Reform Legislation



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Angela Garner, Lead Auditor
Mary F. Herberger, Senior Auditor
Rashme Sawhney, Auditor




                                                                                    Page 8
              Affordable Care Act: The Tax Exempt and Government Entities
             Division’s Planning Efforts for the Health Care Reform Legislation



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                    Page 9
                 Affordable Care Act: The Tax Exempt and Government Entities
                Division’s Planning Efforts for the Health Care Reform Legislation



                                                                                               Appendix IV

   Affordable Care Act Provisions That Could Impact
     Tax Exempt and Government Entities Division
                      Taxpayers

This appendix presents information on ACA tax provisions that could impact TE/GE Division
taxpayers.

      Affordable
       Care Act     Affordable Care
       Section       Act Provision                    Provision Description                     Effective Date



                                       Provides tax-exempt status under section 501(c)
                   Qualified
                                       (29) for qualified nonprofit health insurance issuers
  1                Nonprofit Health
         1322                          that meet certain requirements of the Consumer             3/23/2010
                   Insurance Issuers
                                       Operated and Oriented Plan program established by
                                       the Department of Health and Human Services.



                   Transitional
                                       Provides tax exemption for applicable reinsurance
  2      1341      Reinsurance                                                                    3/23/2010
                                       entities.
                   Program



                   Small Employer      Provides a refundable tax credit to small
  3      1421      Health Care Tax     tax-exempt employers who contribute to health              1/1/2010
                   Credit              insurance premiums for their employees.


                                       Provides tax exemption for organizations that
                   Key National
  4      5605                          partner with the National Academy of Sciences to           3/23/2010
                   Indicator System
                                       implement a Key National Indicator System.


                   Patient-Centered    Added the Patient-Centered Outcomes Research
  5      6301                                                                                     3/23/2010
                   Outcomes            Institute to the list of tax-exempt organizations.
                   Research




                                                                                                        Page 10
                 Affordable Care Act: The Tax Exempt and Government Entities
                Division’s Planning Efforts for the Health Care Reform Legislation




      Affordable
       Care Act     Affordable Care
       Section       Act Provision                    Provision Description                   Effective Date

                                       Imposes new requirements for tax-exempt hospitals
                                       to maintain their tax-exempt status. Also,               3/23/2010
                                       tax-exempt hospitals are required to adopt a
                   Additional                                                                  Community
                                       financial assistance and emergency medical care
                   Requirements for                                                            assessment
 6       9007                          policy, billing and collection policies, and conduct
                   Tax-Exempt
                                       community health needs assessments at least once        Beginning
                   Hospitals
                                       every 3 years. Requires the IRS to perform a               after
                                       review of the community benefit activities at least     3/23/2012
                                       once every 3 years for tax-exempt hospitals.

                   Exclusion of
                   Health Benefits
                                       Excludes from gross income the value of specified
 7       9021      Provided by                                                                  3/23/2010
                                       Indian tribal health benefits.
                   Indian Tribal
                   Governments

                   Qualifying
                                       Provides a 50 percent investment tax credit for
 8       9023      Therapeutic                                                                  1/1/2009
                                       qualified therapeutic discovery projects.
                   Discovery Credit

                   Excise Tax on       Imposes a 10 percent tax on indoor tanning
 9      10907                                                                                   7/1/2010
                   Tanning Services    services.

Source: Legislative Analysis Tracking and Implementation Services reports and IRS internal documents.




                                                                                                        Page 11
